No.
IN THE SUPREME COURT OF THE UNITED STATES
FEDERAL TRADE COMMISSION
V.

CREDIT BUREAU CENTER, LLC
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE A
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT, via e-mail and first-class mail, postage prepaid,
this 7TH day of November 2019.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 7, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

FEDERAL TRADE COMMISSION
CREDIT BUREAU CENTER, LLC

Stephen R. Cochell
Cochell Law Firm
2616 South Loop West,
Ste 470
Houston, Texas 77054
Telephone: (346) 800-3500
srcochellgmail.com

